BECKER GALLAGHER
Briefs

Supreme Court of the United States
United States Courts of Appeals

and Records

CERTIFICATE OF COMPLIANCE
No. 20-639
CALVARY CHAPEL DAYTON VALLEY,

Petitioner,
V.

STEVE SISOLAK, GOVERNOR OF NEVADA, ET AL.,

Respondents.
As required by Supreme Court Rule 33.l(h), I
certify that the Brief of amici curiae the Ethics and
Religious Liberty Commission, National Association of
Evangelicals, and the Lutheran Church-Missouri
Synod in support of Petitioner in 20-639, Calvary

Chapel Dayton Valley v. Steve Sisolak, Governor of
Nevada, et al. contains 4,416 words, excluding the

parts of the Brief that are exempted by Supreme Court
Rule 33. l(d).

I declare under penalty of perJury that the
foregoing is true and correct.
Executed on December 10, 2020.

Donna J. Wol
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

! 8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
, 1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affi.ant
on the date designated below.

[seal]

Notary Public

BIANCA BECKER

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

